No. 20-454
IN THE SUPREME COURT OF THE UNITED STATES
_________________
NORRIS COCHRAN, ACTING SECRETARY OF HEALTH AND HUMAN SERVICES, ET AL.,
PETITIONERS
v.
MAYOR AND CITY COUNCIL OF BALTIMORE
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of the JOINT
STIPULATION TO DISMISS, via email and first-class mail, postage prepaid, this 12th day of March, 2021.

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217

March 12, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in addition to
mailing your brief via first-class mail, we would appreciate a fax or email copy of your brief. If that is
acceptable to you, please fax your brief to Charlene Goodwin, Supervisory Case Management Specialist,
Office of the Solicitor General, at (202) 514-8844, or email at SupremeCtBriefs@USDOJ.gov. Ms.
Goodwin’s phone number is (202) 514-2217 or 2218.

20-0454
COCHRAN, NORRIS, ACTING SECRETARY OF
HEALTH AND HUMAN SERVICES, ET AL.
MAYOR AND CITY COUNCIL OF BALTIMORE

JOHN J. BURSCH
ALLIANCE DEFENDING FREEDOM
440 FIRST STREET, NW
SUITE 600
WASHINGTON, DC 20001
616-450-4235
JBURSCH@ADFLEGAL.ORG
DREW A. HARKER
ARNOLD & PORTER KAYE SCHOLER LLP
601 MASSACHUSETTS AVENUE, NW
WASHNIGTON, DC 20001
202-942-5022
DREW.HARKER@ARNOLDPORTER.COM
DANA PETERSEN MOORE
BALTIMORE CITY LAW DEPARTMENT
OFFICE OF LEGAL AFFAIRS
100 NORTH HOLLIDAY STREET
BALTIMORE, MD 21212
410-396-3659
LAW.DANAPMOORE@BALTIMORECITY.GOV
SUZANNE SANGREE
BALTIMORE CITY LAW DEPARTMENT
OFFICE OF LEGAL AFFAIRS
100 NORTH HOLLIDAY STREET
ROOM 156
BALTIMORE, MD 21212
443-388-2190
SUZANNE.SANGREE2@BALTIMORECITY.GO
V

PRISCILLA JOYCE SMITH
YALE LAW SCHOOL INFORMATION SOCIETY
PROJECT
319 STERLING PLACE
BROOKLYN, NY 11238
718-399-9241
PRISCILLA.SMITH@YALE.EDU
FAREN M. TANG
YALE LAW SCHOOL
127 WALL STREET
NEW HAVEN , CT 06511
203-432-1082
FAREN.TANG@YLSCLINICS.ORG
STEPHANIE TOTI
LAWYERING PROJECT
25 BROADWAY
9TH FLOOR
NEW YORK, NY 10004
516-967-4110
STOTI@LAWYERINGPROJECT.ORG
ANDREW TUTT
ARNOLD & PORTER
601 MASSACHUSETTS AVE., NW
WASHINGTON, DC 20001-3743
202-942-5242
ANDREW.TUTT@ARNOLDPORTER.COM

